<html>
<title></title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


.                                   
                         [H.A.S.C. No. 116-12]

           OUTSIDE PERSPECTIVES ON MILITARY PERSONNEL POLICY

                               __________

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON MILITARY PERSONNEL

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             MARCH 12, 2019


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-298                      WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------



                   SUBCOMMITTEE ON MILITARY PERSONNEL

                 JACKIE SPEIER, California, Chairwoman

SUSAN A. DAVIS, California           TRENT KELLY, Mississippi
RUBEN GALLEGO, Arizona               RALPH LEE ABRAHAM, Louisiana
GILBERT RAY CISNEROS, Jr.,           LIZ CHENEY, Wyoming
    California, Vice Chair           PAUL MITCHELL, Michigan
VERONICA ESCOBAR, Texas              JACK BERGMAN, Michigan
DEBRA A. HAALAND, New Mexico         MATT GAETZ, Florida
LORI TRAHAN, Massachusetts
ELAINE G. LURIA, Virginia
               Dave Giachetti, Professional Staff Member
                          Dan Sennott, Counsel
                         Danielle Steitz, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Kelly, Hon. Trent, a Representative from Mississippi, Ranking 
  Member, Subcommittee on Military Personnel.....................     2
Speier, Hon. Jackie, a Representative from California, 
  Chairwoman, Subcommittee on Military Personnel.................     1

                               WITNESSES

Asch, Dr. Beth J., Senior Economist, RAND Corporation............     4
Harrison, Todd, Director of Defense Budget Analysis, Center for 
  Strategic and International Studies............................     5
Levine, Peter, Senior Fellow, Institute for Defense Analyses.....     7

                                APPENDIX

Prepared Statements:

    Asch, Dr. Beth J.............................................    33
    Harrison, Todd...............................................    49
    Levine, Peter................................................    54
    Speier, Hon. Jackie..........................................    31

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
           
           
           OUTSIDE PERSPECTIVES ON MILITARY PERSONNEL POLICY

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                        Subcommittee on Military Personnel,
                           Washington, DC, Tuesday, March 12, 2019.
    The subcommittee met, pursuant to call, at 2:54 p.m., in 
Room 2212, Rayburn House Office Building, Hon. Jackie Speier 
(chairwoman of the subcommittee) presiding.

OPENING STATEMENT OF HON. JACKIE SPEIER, A REPRESENTATIVE FROM 
   CALIFORNIA, CHAIRWOMAN, SUBCOMMITTEE ON MILITARY PERSONNEL

    Ms. Speier. I would like to welcome everyone to this 
afternoon's Military Personnel Subcommittee hearing. Today we 
have a panel of experts who will share their perspectives on 
how to improve and modernize military personnel policy to 
sustain the All-Volunteer Force. I want to thank our witnesses 
for participating and sharing their views on this important 
subject.
    The services need to end business as usual. All too often, 
they are operating out-of-date, one-size-fits-all recruiting 
and retention policies under inflexible cultures. I worry that 
this is hindering them from reaching and retaining the right 
talent. Too often, the response to proposed personnel reforms 
is ``the system worked for me,'' ``they know what they signed 
up for,'' or ``that's not how it works.'' Those adages are 
simply not good enough. They are the hallmarks of a culture 
resistant to change, unprepared to face mounting challenges.
    The services continue to use age-old policies to shape the 
force instead of reshaping how end strength is used. Meanwhile, 
the pool of recruits is contracting. Eighty percent of recruits 
have family service connections, there's a highly competitive 
labor market, and many potential service members don't meet 
physical standards or just don't want to serve. The status quo 
is not sustainable.
    The Army for example was unable to meet its end-strength 
requirements in 2018 and will likely fall short again in 2019. 
The Navy has for close to a decade has not placed the correct 
number of trained sailors on ships, while the Air Force has 
struggled to keep pilots and qualified maintenance personnel at 
all levels.
    The competition for talent is fierce. The qualified pool is 
dwindling and the bars to service seem to be increasing. The 
culture of the generation the services are attempting to 
recruit and retain has also changed. They think differently. 
They communicate differently and define what they value 
differently than the generation of current leaders, and 
certainly of those that develop the policies used today.
    These are complex, hard problems and we are not going to 
solve them today. But what we can do is get smarter about how 
we think about solving them. Our witnesses are personnel 
experts and they are also expert in conceptualizing our 
approach to personnel problems. They can help us find new ways 
to collect and use data to make personnel decisions, suggest 
novel approaches for evaluating program efficacy, and think 
creatively.
    We have a responsibility to take these problems seriously 
and not chalk up shortcomings to the inscrutable lifestyles and 
preferences of quote, the kids these days, unquote.
    Leadership means listening to and learning from those we 
serve. And the great benefit of living in the 21st century is 
that even when the people we wish we could talk to are too busy 
texting on their cell phones and playing, I do not even know if 
Candy Crush is popular today, we can collect data on them and 
just learn in the aggregate.
    I believe the services need to think creatively and beyond 
their current cultures about how to manage people. The central 
question for you today is, how can we create a 21st century 
service personnel set of policies that are appropriately 
managed and sufficiently flexible in order to recruit, retain, 
and compensate the right mix of talented service members 
throughout their career to sustain the All-Volunteer Force?
    I am interested to hear from our witnesses their views on 
what the future requirements are for effective military 
personnel policies, and what effect these policies may have on 
the All-Volunteer Force.
    But before doing so, I would like to offer Ranking Member 
Kelly an opportunity to make his opening remarks.
    [The prepared statement of Ms. Speier can be found in the 
Appendix on page 31.]

     STATEMENT OF HON. TRENT KELLY, A REPRESENTATIVE FROM 
MISSISSIPPI, RANKING MEMBER, SUBCOMMITTEE ON MILITARY PERSONNEL

    Mr. Kelly. Thank you, Madam Chairwoman.
    I wish to welcome our witnesses to today's hearing. There 
can be no doubt that the United States military is the greatest 
in the world and that the key to our success is the people. 
Less than one percent of U.S. citizens volunteer to serve in 
the military and the officers, warrant officers, and enlisted 
members who make up our current force are among the highest 
quality that we have ever had.
    Nonetheless, there are signs of stress within our force. 
The Army will again this year miss its recruiting goals while 
the Air Force continues to experience a critical pilot 
shortage. Similarly, many of the Reserve Components continue to 
struggle to meet their end-strength missions. It is clear that 
there are many issues contributing to the problem including a 
strong economy, record low unemployment, and a low propensity 
to serve among today's youth.
    In that light, I want to thank the chairwoman for holding 
today's important hearing on military personnel policy.
    The Defense Officer Personnel Management Act, DOPMA, and 
the Reserve Officer Personnel Management Act, ROPMA, represent 
the statutory foundation for officer accession, promotion, and 
separation. DOPMA and ROPMA have served us well for over 40 
years and the fundamentals of the up-and-out system are 
integral to maintaining a talented and dynamic force.
    Before making additional changes to personnel management, 
we need to clearly understand what the problem is, specifically 
we need to understand why officers are electing to get out of 
the military and what would have kept them in the service.
    The Defense Department already has much of the data 
necessary to answer these questions, but my perception is, is 
they are not leveraging this information in order to make 
informed decisions. It is amazing what all the in-line and 
online information that we have today that can tell you what 
your shopping preferences at Wal-Mart are, but we can't tell 
why soldiers are getting out of the military.
    While Congress has made several changes in the last few 
years related to DOPMA, I am interested to hear from our panel 
about how to improve Reserve officer management; particularly I 
look forward to hearing how we can improve permeability between 
the Active and Reserve Components and enhance the quality of 
life and predictability for the total force.
    I am also interested to hear from the witnesses how we can 
improve recruiting and retention to the warrant officer corps. 
These professionals provide needed experience and technical 
expertise that is integral to military readiness, and I would 
like to hear how we can best incentivize them to stay until 
retirement.
    Finally, I am interested to hear from our witnesses about 
preserving adequate compensation for our service members.
    While increased compensation is not going to solve all of 
our recruiting and retention problems, it is an integral 
incentive. It is important to note that 71 percent of young 
Americans between the ages of 17 and 24 are not physically or 
mentally able to serve. That means the military services in 
many cases are competing head to head with civilian industries 
for the same 29 out of every 100 students who are eligible to 
serve, a very small and ever-shrinking pool. In short, the 
services must remain competitive and assure that our service 
members continue to receive the pay and benefits they so richly 
deserve.
    With that, Madam Chairwoman, I yield back.
    Ms. Speier. Thank you, Mr. Kelly.
    We are now going to hear from our witnesses and each member 
will have the opportunity to question the witnesses for 5 
minutes. And we ask the witnesses to try and limit their 
comments to 5 minutes. I know that is going to be tough, so we 
will give you a little latitude.
    Let us start with Dr. Beth Asch, who is the senior 
economist at the RAND Corporation. Welcome.

     STATEMENT OF DR. BETH J. ASCH, SENIOR ECONOMIST, RAND 
                          CORPORATION

    Dr. Asch. Thank you. Chairwoman Speier, Ranking Member 
Kelly, and distinguished members of the subcommittee, I would 
like to thank you for this opportunity to testify today.
    Recently Congress and the services introduced measures to 
increase the flexibility of military personnel management to 
better reward performance and to meet emerging requirements in 
fields such as cyber. But any effort to improve retention, 
performance, and talent management should also consider how the 
current military compensation system might need to change, 
since military compensation is also a critical strategic human 
resource tool.
    My comments today focus on this topic and the main 
conclusion is that research points to several areas for 
possible improvement in the compensation system. And I expand 
on this in my written testimony.
    The first concerns the setting of the level of military 
pay, specifically it should be ascertained whether the 
appropriate benchmark for setting military pay is above the 
70th percentile of civilian pay for individuals with similar 
characteristics.
    Since the early 2000s the 70th percentile has been the 
guiding factor in setting military pay. In ascertaining whether 
the appropriate benchmark now exceeds the 70th percentile it is 
important for the services to identify the qualifications and 
the quality of the force that is required and whether military 
pay is the most cost-effective means of achieving that force 
compared with other policies that might be used.
    The second area for improvement is the annual pay 
adjustment mechanism which determines the annual percentage 
increase in basic pay. The annual adjustment is based on the 
Employment Cost Index, or ECI. Unfortunately, the ECI does not 
seem to track accurately, excuse me, or accurately track the 
opportunity wages relevant to military personnel. In 
particular, measuring the pay gap using the ECI did not perform 
well historically in terms of tracking outcomes like recruiting 
and retention.
    The implication is that the functioning of the ECI needs to 
be reevaluated and alternative approaches for setting the 
annual pay increase should be assessed. This is important, 
because poor functioning of the pay adjustment mechanism should 
be minimized, especially given the growth of military personnel 
costs.
    The third area for possible improvement is the structure of 
the military pay table. In particular, the structure of the 
officer pay table might need to be adjusted to embed stronger 
incentives for performances.
    A first look at the structure of the officer pay table 
suggests that pay in the upper ranks may be overly compressed 
and may not provide adequate retention and performance 
incentives over a career. Related to this, some use of 
performance-based longevity pay increases should be explored.
    Today, intra-grade performance incentives are weakened by 
the lockstep nature of longevity increases in the current pay 
table. One potential way to embed performance incentives is the 
use of a time-in-grade pay table, or an appropriately 
structured constructive credit within the current time-in-
service pay table.
    The fourth area is the setting of special and incentive 
pays or so-called S&I pays. The roughly 60 different S&I pays 
are intended to be a source of flexibility and efficiency. S&I 
pay might be improved in three ways.
    First, research has argued that S&I pay should comprise a 
larger share of cash compensation to improve pay flexibility 
and efficiency.
    Second, some S&I pays could be set to better sustain and 
reward performance. And third, S&I pays that are currently flat 
dollar amounts could be more cost effective if they provided an 
incentive to select a longer service obligation.
    The fifth area of consideration is the new military 
retirement system. Under the new Blended Retirement System or 
BRS, it will be important for the services to ensure that 
continuation pay for officers is set high enough to sustain 
officer retention.
    RAND research predicted that for enlisted personnel, the 
appropriate continuation pay that sustained retention was found 
to be the congressionally mandated minimum. But for officers 
the analysis found that continuation pay should be 
substantially higher to sustain retention, because the move to 
BRS is predicted to have a larger effect on the retention of 
officers than enlisted.
    Sixth, efficiency of personnel policy might be improved if 
compensation was used to a larger extent to induce volunteers 
to take more taxing and critical assignments, locations, and 
occupations. In the future, more elements of compensation could 
be market--based on market mechanisms.
    And finally, achieving non-traditional careers could also 
require changes in the military compensation system. Recent 
personnel reforms have not considered whether following a less 
traditional career path will also mean a less traditional pay 
trajectory over a career. And importantly, whether the current 
pay system can easily accommodate these non-traditional pay 
trajectories.
    Thank you again for this opportunity, and I am happy to 
answer any questions.
    [The prepared statement of Dr. Asch can be found in the 
Appendix on page 33.]
    Ms. Speier. Thank you, Dr. Asch.
    Next, Doctor, I mean Mr. Todd Harrison, Director of Defense 
Budget Analysis, Center for Strategic and International 
Studies. Welcome.

    STATEMENT OF TODD HARRISON, DIRECTOR OF DEFENSE BUDGET 
    ANALYSIS, CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES

    Mr. Harrison. Thank you.
    Chairwoman Speier, Ranking Member Kelly, and members of the 
subcommittee, thank you for the opportunity to testify today.
    The Department of Defense in many ways is on an 
unsustainable trajectory. By almost any measure, the size of 
the force is nearly the smallest that it has been since the end 
of World War II. Total Active Duty end strength reached a post-
World War II low of 1.3 million in 2016.
    Since the peak of the Cold War, the number of ships in the 
Navy has been cut in half. The number of aircraft in the Air 
Force has been reduced by 44 percent. And the number of 
soldiers in the Army has fallen by roughly a third. Yet the 
base defense budget, when adjusted for inflation, is the 
highest it has been since the end of World War II, higher than 
the peak of the Reagan buildup in fiscal year 1985.
    The long-term trend is clear. We are spending more and more 
for a progressively smaller force. There are many reasons why 
the budget has been growing while the size of the force has 
been declining. One of the main reasons and the focus of this 
subcommittee is the cost of personnel.
    Over the past 20 years the average cost per Active Duty 
service member grew by 59 percent, or roughly 3 percent 
annually above inflation. These figures do not include overseas 
contingency operations funding or other military personnel-
related funding outside of the DOD [Department of Defense] 
budget such as veterans' benefits and services. If these other 
costs are included, the growth is substantially higher.
    In the long term, this level of growth is unsustainable 
because it means that if the DOD budget is flat and only grows 
with inflation the military will be forced to get smaller and 
smaller over time.
    Too often over the past 20 years, Congress and DOD have 
turned to a limited set of compensation options to try to 
correct for deficiencies in the overall personnel system. When 
a problem is encountered in recruiting and retention, a typical 
response is to increase the overall pay scale or add bonuses 
and special pays for key personnel. And when that proves 
insufficient, even more compensation is heaped onto the pile.
    For example, the Air Force has had trouble retaining pilots 
for several years. To curb the exodus of experienced pilots, 
the Air Force was offering bonuses of up to $225,000 for a 9-
year commitment. But only 55 percent of eligible pilots elected 
to take the bonus in 2015.
    The Air Force increased the bonus in 2017 to up to $455,000 
for a 13-year commitment and the take rate fell even lower to 
44 percent. As this example demonstrates, we are throwing money 
at problems with diminishing effects.
    When service members make decisions about whether to join 
or stay in the military, compensation is just one of many 
factors involved. A key impediment to reforming the military 
personnel system is a lack of hard data on how service members 
value changes in personnel policies beyond just compensation.
    Too often, decisions are made based on anecdotal evidence 
or the opinions of experts rather than testing and analysis. We 
can do better, and our service members deserve better. What 
matters in the end is not how much something costs to provide, 
but rather, how it is valued by the person who receives it. The 
way a person values something is a matter of personal 
preference and these preferences can and likely will change 
over the course of one's career.
    Moreover, the preferences of one generation of service 
members may be entirely different than those of their current 
leadership and of the generations that preceded them.
    Before making changes to compensation and personnel 
policies, we need to understand how the service members 
affected will value those changes relative to other factors 
that could also be adjusted.
    For example, it is insufficient to simply model how high 
the pilot bonus should be raised without also considering other 
alternatives such as offering these pilots greater stability in 
duty location, more predictable deployment schedules, or more 
input into their next assignment.
    We need to understand these tradeoffs and alternatives and 
the relative values service members place upon them.
    To help recruiting and retention, and to put the military 
on a more sustainable fiscal trajectory, we need to collect 
better data from service members on their preferences for 
changes to compensation and personnel policies.
    The goal of measuring these preferences is to identify 
opportunities where DOD can maintain or improve the 
attractiveness of its compensation package and personnel system 
in a cost-effective way. More importantly, proposed changes 
should be tested through surveys and, where possible, through 
controlled trials in a subset of the overall population before 
being rolled out to the entire force.
    While it is only practical to have OSD [Office of the 
Secretary of Defense] and the services manage this process of 
experimentation and data collection, Congress can play an 
important role by setting the parameters for what changes 
should be tested, providing the necessary authorities, and 
holding senior leaders accountable to make sure it gets done.
    We should not continue to throw money at recruiting and 
retention problems and hope things will improve while some of 
our best and brightest continue to leave the military or never 
join in the first place. Nor should we make changes to the 
personnel system without understanding the effects these 
changes are likely to have on the force.
    In many areas, we have reached the point of diminishing 
marginal utility in our compensation system. A new evidence-
based approach is required that looks at the full range of 
options to optimize the military personnel system.
    Thank you.
    [The prepared statement of Mr. Harrison can be found in the 
Appendix on page 49.]
    Ms. Speier. Thank you, Mr. Harrison.
    Now we are going to hear from Mr. Peter Levine, who is a 
senior fellow at the Institute for Defense Analyses. Welcome.

STATEMENT OF PETER LEVINE, SENIOR FELLOW, INSTITUTE FOR DEFENSE 
                            ANALYSES

    Mr. Levine. Thank you, Madam Chairwoman. Thank you Ranking 
Member Kelly. Thank you both for inviting me here today to 
participate in this hearing.
    We have an extraordinary military, but building and 
maintaining the human capital that we need is an ongoing 
challenge.
    As the chairwoman indicated, about one in six of our young 
people today will meet the academic standards for recruitment 
and are otherwise eligible to serve.
    The numbers are even more daunting when you look at the 
high skills such as technological savvy and computer literacy 
that are increasingly needed for the future force, and for 
which we are in direct competition with the private sector.
    Under these circumstances, we need to do everything we can 
to expand our talent base and not shrink it. That is why our 
search for talent must draw on every sector of our society. 
Without women, for example, our force would not only be smaller 
it would be significantly less capable.
    I agree with the ranking member that the basic framework of 
our up-or-out system remains sound. DOPMA continues to play a 
vital role in providing the stability and predictability that 
young officers need to plan career and that personnel chiefs 
need to plan the future force. It also contributes to the 
development of our young officers by ensuring that the officer 
corps is continually refreshed and by providing a highly 
competitive environment in which it is possible to provide 
responsibility to developing leaders at an early age. However, 
we do need new flexibilities to meet new needs.
    Our acquisition workforce for example faces the challenge 
of trying to acquire cyber, space, software, artificial 
intelligence, and other new technologies from an industrial 
base that is no longer dominated by the traditional defense 
contractors.
    Despite unprecedented attention to strategic planning and 
requirements, promotion patterns and career development 
opportunities over the last decade, we continue to hear about 
critical gaps in acquisition skills and capabilities. Some of 
that shortfall is attributable to a risk-averse culture that 
has become overly dependent on traditional ways of doing 
business. But I don't think we should overlook the part played 
by the officer management system.
    Under the best of circumstances, it takes 10 to 15 years to 
build a skilled manager with the training and experience needed 
to guide the acquisition process. For military officers it 
takes 5 to 10 years longer because we rightly insist on 
rotational assignments so that our acquisition professionals 
will have the muddy boots needed to understand how the military 
works. The result is that just as acquisition officers develop 
the specialized skills and experienced judgment that we so 
desperately need, they are pushed out the door into early 
retirement.
    A few years ago, Bernie Rostker of RAND wrote that the 
DOPMA tenure and retirement rules fail to meet the needs of the 
military intelligence community because they truncate and 
terminate military careers just when intelligence officers have 
gained the experience necessary to make them truly productive.
    He suggested we might need to try 40-year careers in this 
kind of specialty field. The same prescription may be 
appropriate for the military acquisition workforce. 
Fortunately, the DOPMA changes included in last year's NDAA 
[National Defense Authorization Act] provide a pathway for 
cautious experimentation with such changes. I urge you to stand 
by those changes and closely monitor the manner in which they 
are implemented. We need to change, but we cannot afford to 
break the existing system as we seek to improve it. Thank you 
for inviting me to testify today and I look forward to your 
questions.
    [The prepared statement of Mr. Levine can be found in the 
Appendix on page 54.]
    Ms. Speier. Thank you, Mr. Levine.
    Thank you all. I was particularly shocked by the data that 
Mr. Harrison provided about the Air Force. And it is one thing 
to know that we kept adding bonuses in an attempt to get the 
number of pilots to retain the numbers we need for the force, 
but to see that the numbers actually went down the bigger the 
bonuses got was very disheartening, which underscores what all 
of you are really saying, that it is more than money. So I 
would like to ask each of you to give us your thoughts on how 
we can recruit the talent that we need without just throwing 
money at it.
    Dr. Asch, would you like to begin?
    Dr. Asch. Yes. So thank you. So my understanding of the Air 
Force situation specifically is that actually they have been 
moving towards a number of non-monetary activities including 
more stability, more time flying, and so forth. And we have 
RAND research--that is not my expertise, but we do have RAND 
research that we could send the committee that speak to many of 
these non-monetary activities that have been going on.
    It is not--you know, as somebody who studies carefully data 
on things like the effects of bonuses on retention, it is often 
not surprising that we see when bonuses increase retention 
falls, and what that is telling us is the bonus wasn't high 
enough or--and so now that doesn't mean that it has to be in 
the form of money. There could be non-monetary options, but in 
fact what it is saying is that given the growth of civilian 
demand, we know that civilian demand in the major airlines has 
increased dramatically as a result of retirements, a retirement 
boom that is happening in the major airlines, the economy 
grows, that causes the major airline industry to grow, and also 
changes in requirement of flying hours.
    All that has resulted in increasing demand for pilots of 
which--which is affecting military--the demand for military 
pilots. So the competition is particularly fierce. Is it only 
about money? Of course not, and efforts are being made to not 
just deal with money, but money also helps and in fact bonuses 
are effective and there is a question of whether the cap of--
the current cap of $35,000 per year of obligated service is 
sufficiently high given the nature of the demand and its 
continued growth in that field.
    Ms. Speier. The Army didn't meet its goals for recruitment.
    Dr. Asch. That is an enlisted issue, and I can speak to 
that if you would be interested. So recruiting is particularly 
challenging right now because of--as Ranking Member Kelly 
mentioned, I think you mentioned--we have a growing economy, an 
economy where the unemployment rate is particularly low, great 
civilian job opportunities, and at the same time we have a 
force that is growing. Those are like--almost like the perfect 
storm, if you will, of difficult recruiting.
    And so what that means is that we have to work hard at 
getting recruiting right. It means increased resources, but 
also doing resources smartly. It is not just about across-the-
board pay raises.
    It could be about recruiting, getting the right recruiting, 
selecting recruiters correctly, incentivizing recruiters.
    It can be about more advertising, more intelligent 
advertising, targeted advertising, managing the recruiting 
enterprise more smartly, and frankly, even expanding selection 
criteria so that we can deal with the issue that only--that 70 
percent of young people are not eligible to enlist.
    Ms. Speier. Mr. Harrison, your comments on what, besides 
money, is going to get us the kinds of talent and recruits that 
we want.
    Mr. Harrison. I think we are continuing to ask the wrong 
questions here, right, that it is--we shouldn't just be focused 
on what is the right level of bonus, because if you are facing 
a retention challenge and you raise the bonus and not that many 
people take it, then obviously raise it more. At some point 
though, you raise the bonus to a level where you cheapen the 
value of service and that you do not want a force where people 
are just choosing to stay because you are giving them so much 
money.
    I don't--I think that undermines the ethic of service that 
is a great tradition of our military. We should be really 
careful when we start to reach that limit. And I think when we 
are talking about bonuses that are reaching up to like half a 
million dollars almost, that we should be worried about that. I 
think there are better ways to look at it.
    So, first of all, I would want to see exit survey data on 
all the people who elected not to take the bonus, and maybe 
they are even staying in a few more years because of the 
service commitment, I would want to do a comprehensive survey 
to figure out why did these people choose to not take the 
bonus. Let's ask them all kinds of questions about why and then 
let us look at that data so we can get some answers, because we 
may find, sure, some of the people might say it was enough of a 
bonus to compete with a job offer from an airline.
    Other people might say, actually it is the deployment 
cycle. Or, I have got a kid in high school and I am going to be 
due for a PCS [permanent change of station] move in a few 
years, and I don't want to have to move my kid out of the high 
school again. You know, there could be a variety of factors 
here. Many of them could be in our control and maybe non-
monetary entirely.
    Another approach with bonuses is to have more of a bidding 
system.
    The problem with a fixed bonus level of so many dollars per 
years of commitment is that of the people who take it, some of 
them were going to stay anyway. So we are just paying money we 
didn't need to pay. And of the people who don't take it, some 
of them might not have taken it for any amount that we would 
have offered, because it is totally non-monetary reasons that 
they are leaving.
    A bidding system allows you to let people bid and just say 
to them, instead of us telling you here is how much we will 
offer for you to stay for a certain amount of time, let them 
bid on what they think that they--they are willing to stay for, 
what amount of bonus would be enough to let--to induce them to 
want to stay. You can then rank them in order from smallest to 
largest and start awarding that way and work your way through 
until you run out of whatever your bonus allocated amount of 
money is.
    We have tried this--I think the Navy has done something 
like this in other areas but a dynamic bidding system seems it 
would make a lot more sense to actually target and get people 
at the right level, whatever their reservation price is, if 
that is what we are going to try to do. But, again, I think the 
best thing we could do is to understand why they are turning 
down the bonus, why they are leaving the service, what are the 
big issues and what are the non-monetary things we can start to 
address to keep service members.
    Ms. Speier. Thank you. Mr. Levine.
    Mr. Levine. First, let me admit up front that a couple 
years ago as acting Under Secretary for P&R [Personnel and 
Readiness], I did support the Air Force proposal to raise the 
cap on the flying bonus--on the pilot's bonus to address a 
crisis that they saw they had then. I believe though with you 
that that is a short-term and sometimes even shortsighted 
solution, that you need to look at long-term solutions.
    To me, let me just say about the bidding system, I 
understand the bidding system from an economist point of view. 
I am troubled by it from a military point of view.
    I think that one of the main things that we need to do with 
our compensation system is keep faith with our--with our force 
and one of the things that our force is structured around is 
the idea of equity, and I am a little bit troubled by the idea 
that you would have two pilots doing the exact same job and 
they would be paid differently because one of them held out 
longer than another one. I think that that strikes at some of 
core values that we have for our military.
    So what is--what is my non-monetary solution? I think that 
there is a range of solutions that revolve around showing the 
people who are serving that you value the service that they are 
providing, and that can go to the issue we heard about, for 
example with PCS moves, if that is the problem, how do you 
keep--how do you work with people to ensure that they can stay 
in a single place longer.
    I think that there is a particular issue with pilots. It is 
widely said that we have more pilots at desk jobs than we have 
in flying jobs, and that most pilots want to fly, not to be at 
a desk. And so to have a pilot shortage, when you have your 
pilots who aren't flying, seems to me there is a fundamental 
structural problem that you need to look at. You can pay 
greater bonuses but if you could maybe just take advantage of 
some of those hours that your existing pilots would like to fly 
and aren't able to, that might relieve some of the pressure.
    So looking at what it is that people value. Right now, what 
you are doing with bonuses is you are trying to fight against 
things that people don't like about the service they are 
providing. Instead of fighting against the things that people 
don't like about the service they are providing, you address 
those problems themselves, you might have better retention 
impact.
    Ms. Speier. Right. Thank you. Mr. Kelly.
    Mr. Kelly. Thank you, witnesses, again for being here. I 
had the privilege to serve in our military since the mid 1980s. 
And in the 1980s through 2003, we incentived people to join 
using college benefits, get your college education. And I saw 
in 1990 a drove of those folks go out and say, ``Whoa, I didn't 
know I had to go to combat for signing up, I thought I was just 
getting a college education.'' And I saw that again in 2003. 
Since 2003, that has changed because people understand when you 
sign up, there is the chance that you are going to deploy.
    I think you are hitting on some high points with the 
service versus pay, pilots join to fly, not to be a commander, 
not to be a desk jockey. Different people sign up--as a former 
attorney, I also understand some people like to try cases, some 
people like to sit on the bench and oversee other people's 
cases, and some people like to do research. And if you are not 
happy in your job, and if you wind up trying cases but you hate 
it, you are not going to stay in the business and I think the 
military is the same way. We have spoken in the past about 
improving Active and Reserve Component permeability while 
increasing benefit parity between the Active and Reserve 
Components. What needs to be done to achieve this?
    Mr. Levine. So I would say the single greatest thing that 
we can do is just something that I understand, which was 
something that was going on when I was at P&R and that I 
believe is coming close to coming back to the committee soon, 
which is addressing the duty status reforms so that we can get 
consistent treatment of Reserves when they are on duty and not 
have this--the system we have now where you bump from one 
category to another and you have people who are serving in 
comparable positions with different statuses and different 
requirements.
    So I think that is the single biggest thing you can do. I 
understand this is moving forward. I hope it is moving forward, 
but as if--to the extent that we are able to experiment with 
the Active--with the Active Duty and develop new career paths 
for example, I think we need to look at how the Reserves fit 
into that. The ROPMA, I believe, was enacted about a decade 
after DOPMA and that may be appropriate--it may appropriate 
here that we experiment first with the Active Duty, but 
eventually we are going to need to make sure that we have 
parity there too to achieve the permeability we want.
    Mr. Kelly. Any comment from you two?
    Dr. Asch. I fully agree with Mr. Levine that duty status 
reform is definitely very important. I would also just hearken 
back to the compensation piece. There have been proposals that 
have been looked at to better integrate the Reserve retirement 
system with the Active retirement system. In particular, an 
area of contention has always been waiting to age 60 to be able 
to begin claiming benefits versus the Active side, where you 
can immediately get benefits if you reach 20 years of service. 
There have been proposals and we have done a lot of research in 
that area and--that could potentially solve that issue of 
having greater equity, if you will, without sacrificing some of 
the force management benefits of the current system.
    Mr. Harrison. I will just one add thing. To the point of 
equity, I think we ought to stop and realize we are making an 
assumption here that equity actually matters to the troops in 
the way that we are talking about. You know, so before I would 
want to change the Reserve retirement system to try to make it 
more equitable with the Active retirement system in terms of 
retirement age, let us go out and test that. Let us do some 
surveys and see if that actually matters to people, if that is 
a reason that people are leaving or if they would actually 
understand how to value this change in the system.
    We can calculate how much it would cost, but we don't 
necessarily know how much the troops would value that change. 
And especially when it comes to deferred benefits, people at 
different ages and different ranks have very different discount 
rates in how they value deferred forms of compensation.
    But also back to the earlier point in terms of equity if 
you are like in a bidding system with bonuses, if you are 
giving some people different levels of bonuses for the same 
commitment, we actually deal with this already today because in 
many career fields, some people will qualify for a bonus based 
on their cohort or their time in grade or whatever and someone 
else who is doing the job right next to them may not qualify 
for that same bonus or may not have elected it.
    So we have people already serving in similar jobs, some who 
are getting the bonus and some who are not, and that lack of 
equity does not appear to be overly disruptive to the force. So 
I would just challenge this assumption that equity should be a 
priority when we are setting benefits. I think we ought to look 
at all of these things and measure them and see what really 
does matter.
    Ms. Asch. Sir, may I just add----
    Mr. Kelly. Okay. Let me go to the next question because you 
all are going back and forth on things that I didn't ask, so 
let us stay on point I guess. Congress made a lot of changes to 
DOPMA in the past year giving the services even more 
flexibility. However, I am not sure that any of these changes 
will matter if services don't fundamentally change their 
culture. By that I mean that services must ensure they are 
honestly and effectively evaluating officer potential and not 
writing off officers with non-traditional career patterns.
    How can the services best implement this cultural change? 
Again, we have broadening and assigning skills and everybody is 
not set for those. You have logistics officers that are treated 
the same as an infantry officer. Pilots who are treated the 
same. How do--how do we change that within the system to make 
sure that we are promoting the right people?
    Dr. Asch. Well, I will go first, which is--changing culture 
is difficult and in fact culture is important actually, because 
when you have a shared culture it gives allegiance to the 
organization, it can be a very good thing. But I understand 
your point. I think that the way to change the culture in this 
regard is that it has to be organic and it has to come from the 
services itself. And I think there are signs to indicate that.
    The Army, for example, has put together a talent management 
group. The Navy has already moved forward on their Sailor 2025 
I think it is called. They see that they have to bring in the 
cyber, they have to be doing things to meet their mission. And 
so I think the DOPMA reforms are actually ones that the 
services will organic--because they see the need for it that 
they will use, and then maybe eventually the culture will 
change. My guess, and it is simply a guess, is that the culture 
will continue but it will accommodate more flexible, non-
traditional careers. In other words, we will still have the 
traditional careers but there will be an opportunity with these 
more non-traditional approaches.
    Mr. Kelly. And I am going to move to the next question 
because I am trying to make sure I give other folks time. Mr. 
Levine, warrant officers have the benefit of prior enlisted 
experience and years of specialized technical expertise. We 
have done much to address officer management, not as much to 
address the warrant officer corps.
    As we are doing--are we doing all we can to retain the 
right specialties within the warrant officer corps? Are there 
any specific policies that need to be changed in order to 
improve recruiting and retention of this population? You know, 
we have got them in maintenance and personnel and pilots, do we 
need those in cyber? Do we have the right mix or how can we 
improve that?
    Mr. Levine. So I think we need to be aware of all the 
components of the total force, that goes to--it goes to officer 
and enlisted, it goes to Active and Reserve, it goes to 
military and civilian, it goes to organic and contract, and it 
also goes to special categories like warrant officers. And to 
me, the key to that is it is not necessarily compensational, I 
agree. You need to study that, make sure your compensation is 
adequate.
    The key is making sure you value the service that people 
are providing. And I think the problem with warrant officers as 
much as anything may be that they get lost in the middle 
sometimes. We are paying too much--we are paying--we make sure 
we pay attention to the officer corps because they are central 
to our effort. We make sure we pay attention to the enlisted 
because we know that they are the bulk of the force, but 
sometimes--but are we paying enough attention to the special 
needs of the warrant officer? I am not sure we are.
    It is a similar thing to what we face in the society as a 
whole where the middle skills--what they call the middle skills 
tend to get lost and aren't valued the way they need to be and 
we have good jobs that go vacant because people don't want to 
do something that isn't a valued occupation. So I think the 
most important thing we could do in that area is to show that 
we value the occupation, that it is something we can't do 
without.
    Mr. Kelly. And I think we, as a society, often fail to 
identify issues or questions before we rush to a solution. And 
this next question is for you, Mr. Harrison. You mentioned in 
your written statement that the Defense Department needs to do 
more to gather and analyze data related to why officers and 
enlisted service members are leaving the military. I totally 
agree. What should the Department be doing to better understand 
service members' motivations for leaving and staying in the 
military? I think the data is there. I think we are just not 
using it. And please tell me how we can improve that.
    Mr. Harrison. I think a lot of the data is there and it is 
in databases that are in disparate places and in places that we 
might not think of as personnel data that is related to 
recruiting and retention. We know virtually everything about 
service members, their entire record of service. We know if 
this--if their duty assignment two tours ago was not their 
preference. We know if they had an unaccompanied tour for 12 
months 20 years ago. We have all of this rich data, we need to 
mine it and use it to develop predictive analytics.
    I mean this is what corporations have gotten really good at 
doing in big data analytics. You know, a cellphone company, 
they are looking every day at your calling patterns and who is 
calling you and who you are calling, how you are using your 
phone and they are using that dynamically to predict whether or 
not you are likely to leave and go to a different service 
provider. And if they think you are, they are going to 
determine whether or not you are worth keeping as a customer, 
and if they think you are, if you are a high-value customer, 
meaning profitable, they are going to go after and try to keep 
you, they are going to give you different offers to try to lure 
you in.
    They test all of this all the time. We have got a rich 
amount of data on our service members, their families, 
everything about their history. The real challenge I think is, 
with all that data, is pulling it all together in a useable 
form and having a group of analysts who will pour over that 
data and will look at it without bias, without prejudging and 
saying ``I think this is going to be the answer,'' and look at 
it and say, ``okay, on an individual level, what can we do 
better here with these people, what are the people that we are 
at risk of losing that we really want to keep and what can we 
do proactively.''
    You know, I think that is a real change in the way that we 
do a lot of our analysis. But you are right, a lot of the data 
is there. Some of the data that is not there, it is a matter of 
doing more targeted surveys that measure perceived value of 
things rather than just asking static questions. There are a 
lot of things you can do with online surveys now that you 
couldn't do 20, 30 years ago.
    Mr. Kelly. I am gonna cut--you've answered that, so with 
that, I am going to yield back to the chairwoman.
    Mr. Harrison. Okay, absolutely.
    Ms. Speier. Thank you. Ms. Escobar, you are next.
    Ms. Escobar. Thank you, Madam Chair, and many thanks to our 
panel. I very much appreciate the conversation and the 
diversity in views and I want to talk about a different kind of 
diversity and that is diversity within the ranks. According to 
media reports, as recent as last summer, Latino service members 
continue to be severely underrepresented in the upper military 
ranks despite the fact that their rate of military service has 
increased as their representation in the American population 
has also increased.
    But across military services, the unfortunate truth is that 
diversity decreases as rank increases. So as we are discussing 
the various types of reforms to our personnel system, I would 
like for us to discuss building diversity in those ranks as 
well, and making sure that everyone has opportunity for success 
and access to success.
    Recognizing the current disparity and knowing the human 
tendency of leaders to promote individuals who are similar to 
themselves and the natural role that networking and mentorship 
play in professional success, I would like for each one of the 
panelists please to answer the question of how we go about 
correcting this disparity, what steps we can take to ensure it 
in our talent pipeline and leadership pipeline? And Latino 
service members also tend to end up in combat roles. Is there a 
disparity in promotions between combat service and support 
functions like logistics, administration, transport?
    Mr. Levine. It is actually the other way around. The bias 
in promotion tends to be toward combat roles and toward the 
combat arms rather than away from it. The--I don't have a 
prescription of how to deal with the problem you have 
identified other than to just keep working at it and working at 
it hard.
    When I was in the Department, I know that our senior 
military officers and our recruiting leaders in particular had 
their eye on that and were working on it as hard as they could. 
I can't tell you why the Marine Corps does better with 
recruiting Latinos for example than why--than the other 
services do. I know that is the case. I think it is probably 
cultural and it probably goes back to what you are saying, that 
people are comfortable with recruiting people who look like 
them, but also people are comfortable with going into a service 
where there are already people who look like them.
    So in order to break through that, I don't know a solution 
other than working really hard at it, sending your recruiters 
to neighborhoods they are not going to, that they haven't been 
going to, making sure that you are working as hard as you can 
to get to that population, and doing what you can when you have 
people who are valued service members in your ranks to counsel 
them, to make sure that they know what the best paths are and 
what the routes are to promotion.
    It is hard work and it is going to take--it is going to 
take place over a period of time, but I don't think we have any 
choice but to keep working at it.
    Ms. Escobar. Thank you.
    Mr. Harrison. I would offer one thing that--I do teach 
part-time on the side and I have always worried in my grading 
of students that there could be some sort of implicit bias that 
gets into it. So what I do is I grade blinded. I remove their 
names from their exams. So I am grading the exam not knowing 
which student's exam it is.
    You could apply a similar principle to promotion boards and 
make them blinded where you remove the name, you remove any 
reference to gender, race, or whatever, and have them evaluated 
that way. And actually, consistent with my overall theme here 
of testing and experimentation, it would be interesting to do 
parallel promotion boards of the same candidates and have one 
promotion board blinded and then another promotion board 
unblinded and see if you do get difference in results.
    Ms. Escobar. Well and to your point and--and I definitely 
want our last panelist to answer the question as well, but to 
your point about collecting data and surveying individuals, it 
would also be interesting to get the perspective of those who 
have not risen to the top of the leadership pipeline about what 
obstacles they have encountered, about their own thoughts about 
the process and whether they think it has been fair or whether 
they think that the opportunities have been made available to 
them at all.
    Dr. Asch. So actually, this is to [Ranking] Member Kelly's 
point, this is an area where we actually do have a lot of 
studies and data, but unfortunately it hasn't been synthesized 
very well. And so there is a lot of information about 
promotion, about the choices that individuals make and how it 
differs by demographics. And my assessment from what I know is 
that it is--there is not a one-size-fits-all solution. So for 
example in the area of recruiting, one thing we know is that 
recruiter--recruiting is more successful when the recruiter has 
a similar demographic to the recruit. That is an example.
    So it is a multi-step process about how the qualifications 
for occupations work, what kind of--what kind of guidance are 
people giving? Does it--is it biased? Is it--so it is multi-
pronged, but fortunately there actually is quite a bit of data 
and information and survey data that I am aware of available 
both by studies such as at RAND, but also within the Department 
of Defense, there was the military leadership--MLDC, Military 
Leadership Diversity Committee a few years back. And so there 
are sources. I think what would be very useful is if somebody 
could compile that and sort of see where the gaps are.
    Ms. Escobar. Thank you.
    Ms. Speier. Thank you. Next, we are going to hear from Mr. 
Bergman.
    Mr. Bergman. Thank you, Madam Chairwoman. And thank you all 
of you for your testimony and your--and your hard work to this 
point. And as far as the Marine Corps and the recruiting, it is 
pretty simple. We look the young men, women in the eye and say, 
``we are recruiting you to go to the fight, we are going to go 
as a team, we are not going to leave you behind,'' it is no 
more complicated than that. Now, other services would do the 
same thing in their own way, but that is who we are as a 
culture.
    Speaking of that, did any of your assumptions and therefore 
your assessments consider the unique differences between 
service missions? One quick example, we expect that 75--if 100 
young men and women join the Marine Corps today, at the end of 
their first enlistment, they are going to say ``it has been 
fun, been great fun, but I am out of here, I am on with life,'' 
okay? Other services want to keep those young and at that point 
NCOs [non-commissioned officers] longer because they have got 
different kind of skill sets. So were there any of those 
mission, you know the mission of the services considered?
    Mr. Levine. So one of the things that I think is a good 
point in last year's legislation is that most of it is 
discretionary rather than mandatory, so it leaves it up to the 
services to determine which of the new authorities they think 
they are going to apply and how they are going to apply them. 
And I think that that is something that allows each of the 
services to build on its own culture and use an authority where 
it is appropriate for it.
    I know there are some of the authorities for example that 
the Navy, the Air Force are planning to use them and the Marine 
Corps said yes, those are useful authorities to have, but I 
like the way that I operate right now and I am not going to use 
them and the legislation leaves them the flexibility to do 
that.
    Mr. Bergman. Okay.
    Dr. Asch. I would just add that I agree with the point he 
made, but I would also add that we look at the data and the 
phenomenon you are referring to of different retention profiles 
by service are eminently obvious in the data. And so when we 
look--I mean it is--we see those differences in the data and 
then when we do analysis, we incorporate those differences that 
we see in the data.
    Mr. Bergman. Okay, I would like to go down the ROPMA road 
for a minute here. Good we talked about DOPMA, and ROPMA is--
and I think I already know the answer is--is ROPMA as good as 
it really needs to be at this point because of the fact that 
when we look at retention of different skill sets over the long 
term, let us say HDLD, high-demand and low-density assets that 
are high burnout in the Active Component, someone decides to 
leave Active service, but we--whether it is IT [information 
technology], intel, cyber, civil affairs, whatever it happens 
to be, is ROPMA as flexible as it needs to be going forward to 
transition some of those HDLD skill sets into the Reserve 
Component so you can maintain the expertise that now that staff 
sergeant or that major has acquired?
    Mr. Levine. So I think that sometimes the legislation gets 
blamed for things that aren't the fault of the legislation at 
all. DOPMA and ROPMA both provide frameworks. They provide a 
great deal of flexibility within those frameworks even before 
last year's legislation, but more so with last year's 
legislation.
    I think that we have a lot of the flexibility that we need 
to address specific needs of specific communities within the 
armed services, specific skill sets; there are places where we 
aren't using those and we need to move slowly on that because 
we don't want to break the system but we need to consider which 
skills are more appropriate in Reserves than the Active Duty 
for example and build those.
    But I think that we need to be careful about saying, 
``Well, we are not getting everything we need, therefore, the 
legal framework is wrong.'' I think the legal framework is 
fundamentally sound and we need to figure out how to work 
within that to get the skills.
    Mr. Bergman. So to go down that road for a quick second, is 
the 175--179-day limitation continuous Active Duty, then you 
count against Active Duty end strength, is that still in place?
    Mr. Levine. I believe so.
    Mr. Bergman. Is it time to get rid of that?
    Mr. Levine. I don't have--I don't have a view on that.
    Mr. Bergman. Well, the point is when you look at force 
management and you look at the commander's capability to bring 
on limited assets, we are not talking about big--we are not 
talking battalions, we are not talking squadrons, we are 
talking onesie, twosies, because the reason people used to ask 
for 179 days Active Duty for a reservist is that was all they 
could get by law whether they need them for 30 days or they 
need them for 230 days. But as we move forward with, you know 
we are here to be part of the solution here, but it means we 
need to change something in that 179-day limitation because 
nobody wants to go over end strength.
    Mr. Levine. So I would say if you are talking about ones 
and twos, it is probably not something that is going to push 
you up against end strength and you may have more of a budget 
problem than an end-strength problem, do I have the money to 
pay, to bring these folks onto Active Duty, have I budgeted it 
right?
    Mr. Bergman. Okay. If you have got--if you are funding out 
of RPMC [Reserve Personnel Marine Corps]--and pardon me, I am 
getting to the acronyms now here. But the point is that yes, it 
is all about funding and I guess I am over my time. I yield 
back.
    Ms. Speier. Thank you. Ms. Luria.
    Mrs. Luria. Well, thank you for being here today. And as we 
have gone through this, we have mentioned that there is data 
and there is a need to analyze the data more, as well as the 
fact that exit data would be useful information for us to be 
able to help craft these policy decisions.
    And I am wondering, from any of the data that is available 
that you have reviewed, and I will put my question to Mr. 
Harrison, where would you say that military pay falls out in 
the scale of the different things such as job satisfaction, 
OPTEMPO, work-life balance, morale, and then a desire basically 
to have your boss's job and to continue to move up through 
the--in the chain of command; where would you say pay falls in 
all of those? Is it at the top?
    Mr. Harrison. So I would first caution that I have not seen 
data that I am adequately satisfied with that actually does the 
tradeoffs, that measures the tradeoffs that service members 
make among these very different forms of compensation and 
personnel system. In a study that I had done about 7 years ago 
now, we attempted to do this, but we did not have a 
statistically significant data set. It was not randomly chosen 
service members. It was whoever decided to take the survey.
    And so it was more of a proof of concept, but we were 
trying to get at how you measure relative value that folks 
place on different forms of compensation. I do believe that the 
Military Compensation and Retirement Modernization Commission 
from several years ago, they did a survey like this. I believe 
they published the results, but I have not been through that 
thoroughly enough to know, but I think that is a place to look.
    Mrs. Luria. Okay. Well, I--I can take a look at that as 
well and I did find a Navy retention study from 2014 that the 
list I gave were some of the factors that they put in there. 
And also just speaking anecdotally for my 20 years of serving, 
as well, as an officer, and we are focusing on that the--the 
pay and compensation were good, they were sufficient, and I 
don't know myself or my peers were ever really looking at that.
    And Dr. Asch, I appreciate your analysis in different ways 
of the breakdown of both time in grade and rank and what those 
deltas are in the pay structure. But I think that--that might 
be something that is helpful, but I don't find that to be the 
main thing that is going to drive people towards whether they 
stay or go and with the career path.
    But what I think really is that we are making an investment 
in people once we bring them in, and we bring them in, there is 
a specific point they get to in their career and with the up-
and-out model if you are in the out group, i.e., you didn't 
meet that particular career milestone that would lead--then 
lead to your next promotion, we don't have, I wouldn't even say 
an off-ramp, but a re-ramp to take the skills that that person 
has developed, whether they would be a pilot that may never go 
to command, but is a really good pilot and wants to continue to 
fly, why continue to train a new pilot from scratch? The same 
thing with a variety of other career fields.
    So I just wondered if you had anything to weigh in on that 
and whether you think that that type of alternative path system 
might be an effective way to maintain the talent that we have 
already invested in.
    Mr. Harrison. So I think that that is a very good way to 
try to maintain some of the talent we have invested in. Up-or-
out promotion is great, but to a point, right? And there should 
be a way for people to rise to the level of their highest 
competence and not be pushed further, quite frankly. And if we 
just have a plain up-or-out promotion system like we've 
traditionally had, you keep pushing people to higher and higher 
levels of competence and eventually it exceeds their ability 
and then they get pushed out.
    A lot of people know when they have reached that middle 
point where they are at their best, they are at their peak, and 
we should allow them to be able to stay there and stay for a 
much longer productive career as long as they are good use to 
the military and good at what they are doing.
    Mrs. Luria. Well, I appreciate that. And I know early on, 
and Dr. Asch, you also mentioned, I think in your statement, 
the refresh of the pool of officers coming in which is very 
important, so a balance between the two. But I felt like I 
often saw peers who have met that point of there was no longer 
an up and then it was an option for an out.
    And I saw this almost like a sine wave both on the officer 
and enlisted side because you are always trying to meet the 
demand signal and the time to react to it is always somewhere 
in the past, so we seem to always have fluctuations where we 
grow and shrink, but we are never quite at the strength we need 
at a particular time.
    So I really appreciate all of your inputs and studies into 
this and thank you for being here today. I yield my time.
    Ms. Speier. Mr. Levine, you had I think a comment that you 
would like to make to Ms. Luria.
    Mr. Levine. I think we need to be very careful about how we 
depart from up or out. I think that exceptions are fine, but I 
would hate to see us abandon it completely. We don't want to 
get to a point where we have the senior ranks jammed and there 
is no place for the younger people to move to.
    And I also think that we have a second problem which is a 
great deal of difficulty saying no to people in the military. 
And so if there is a way to say yes, we will always say yes. 
The up-or-out system is something that enable--that forces a no 
decision in some circumstances, you are gone. So I don't have 
to say you are gone because you are inadequate and you don't 
meet our standards. You are gone just because that is what 
happens at this stage of a career.
    If you just look at OERs [officer evaluation reports] and 
the ability to say this person isn't performing up to snuff, we 
don't have that ability strongly built into our culture. And I 
think that the back--that the backstop of the up-or-out system 
is something that helps us in that regard.
    Mrs. Luria. Well, may I respond just----
    Ms. Speier. Certainly.
    Mrs. Luria. Well I agree completely that we need them. The 
main structure of our military system in rank should continue 
to be essentially an up-and-out structure, but I think that 
there are certain points in career milestones. We also talked 
about everything was always built to the 20 years, everybody 
was well, ``get to 10, I have done this for 10, I have invested 
this time, so my goal is now just to stay for 20 so I can get 
the retirement.''
    You know, changing that end goal with a different and 
blended retirement system may adjust people's decisions at 
those milestone points. And then 40 years old is pretty early 
for somebody to say I am now retired from the military, get 
those benefits, and move on to another career. So maybe it is a 
longevity thing where somewhere between the 10- and 20- or 10- 
and 15-year point, we can get more out of the investment that 
we had if the up and out is not so stringently enforced in a 
two promotion board look cycle and it was extended.
    So I think that up and out is essentially the culture of 
the military and that maintains the order and rank structure of 
the military, but I think that maybe a little bit more 
flexibility within that, especially when we talk about people's 
family planning choices, retaining more women. I mean, we don't 
have time to get into all of those things, but a lot of those 
are factors within people's decision.
    Mr. Levine. I think I agree with absolutely everything you 
just said.
    Mrs. Luria. All right. Thank you. Sorry to take so much 
time.
    Mr. Levine. We just need--we need flexibility in the 
system. We need just to be careful about how we do it.
    Ms. Speier. Ms. Haaland.
    Ms. Haaland. Thank you, Madam Chair.
    I have a question going back to diversity, and I mean I 
think you each can answer this question pretty quickly. Studies 
have shown diversity including diversity of race, gender 
identity, religion, and ethnicity, improve retention and reduce 
the costs associated with employee turnover or personnel 
turnover. And in your opinion, wouldn't the DOD benefit from 
diversity in that respect?
    Mr. Harrison. Absolutely. Always want to draw from a large 
as possible pool of people and get the best and brightest of 
that. So, we should absolutely cast the net as wide as we 
possibly can and try to recruit everyone we possibly can.
    Mr. Levine. If we want to benefit from the talents that are 
available in our society, we have to be open to what our 
society has to offer and that's an incredible amount of 
diversity, it is one of our strengths.
    Ms. Haaland. Absolutely agree.
    Dr. Asch. I, of course, agree as well. And my sense is that 
this is an issue that the services are working actively on. 
Whether it is effective, I don't know, but I think that it is 
understood that it is important for the reasons my colleagues 
have mentioned.
    Ms. Haaland. Right. Yes. And it is seemingly important in 
our history, right, of having--I am thinking about the Navajo 
code talkers, for example. If we hadn't recruited Native 
Americans in large numbers, perhaps we never would have known 
that they had something like that to offer our military.
    But I am concerned about the transgender ban. I will just 
be honest with you. I feel like that's not benefiting our 
military. And so, in your opinion, do you feel that a policy 
such as that should be eliminated in order to not discriminate 
and keep that diversity channel open?
    Mr. Levine. So, I am not going to directly address the 
transgender ban, but I was at P&R, in charge of implementing 
the former policy of accepting transgenders, and I would tell 
you that the position we started from was that we have several 
thousand transgender individuals in the military today and we 
have historically, and the question isn't are you going to have 
them. It's how are you going to treat them.
    And so the approach that we took was given that they are in 
the military, what is the appropriate way to treat them and we 
thought the appropriate way to treat them was as individuals, 
to allow them to serve openly and to provide them the medical 
care that they needed.
    Mr. Harrison. In my own personal opinion, I don't see any 
reason to ban people from service based on gender or 
transgender status.
    Dr. Asch. As a researcher, my natural inclination is what 
are the costs and how will it affect the force. And my sense is 
from the research is that this is such a small population with 
a small cost relative to the overall size of the budget that it 
might be that it ultimately is not an issue in terms of 
readiness.
    Ms. Haaland. Thank you for that. And so, I guess, I think 
you can all answer this question also. Other than salary, are 
there other conditions such as housing conditions or frequent 
relocations that cause service members to leave? I know there 
has been an issue recently with military housing, for example, 
that hasn't met--actually has been dangerous to families. So, 
what is your opinion on that?
    Dr. Asch. So, what I would say is obviously mold and 
unlivable conditions is just unacceptable and it needs to be 
fixed, clearly. But we have to distinguish between the living 
conditions and the acceptability of the living conditions and 
the oversight and making sure that we are giving the right 
quality housing from the allowance.
    And it is not clear that the allowance is inadequate 
frankly and in fact--so I think we have to make that 
distinction. The other point I would like to make is in the 
area of research and data in my view, there is inadequate 
research related to the effect of what I will call quality of 
life aspects of military service on retention.
    There is a recent study that was completed on the MyCAA [My 
Career Advancement Account], the scholarship for military 
spouses. That was one of the first well--scientifically valid 
studies that have been done on that. But, what is the effect of 
commissaries? What are the effects of housing quality? All 
those things, we actually don't know.
    I would like to say one other thing which is there has been 
some discussion about looking at exit surveys and people's 
attitudes towards and values of compensation, of course that is 
useful, including the housing. But I would also say that 
ultimately it comes down to what is the effect on readiness and 
what is the most cost-effective way of meeting readiness goals 
using all the tools available.
    So what I would say is what members say they value, what we 
found in research is what people say doesn't necessarily affect 
their behavior in terms of retention. So we need to be very 
careful including the quality of the housing. Thank you.
    Ms. Haaland. Thank you, Madam Chair. I yield.
    Ms. Speier. Thank you. Mrs. Davis.
    Mrs. Davis. Thank you, Madam Chair. And thank you all for 
being here. I appreciate it.
    And I know that you have been talking a lot about having 
good data and asking questions and I wanted to just single out 
Mr. Harrison for a second, because I know we were having this 
discussion a number of years ago. And one of the conversations 
as I recall is that we often just don't ask and that if you 
don't ask, you are not going to get the information. It sounds 
like maybe there's a little bit more asking, but I am not sure 
that it is as focused necessarily as it could be.
    And, Dr. Asch and I think Mr. Levine as well, I mean, you 
start talking about the quality of life issues, and we can't 
assume that people would select any one quality of life issue 
over another. But again, I guess, are people getting that, that 
we have to ask?
    Mr. Harrison. I mean, as Dr. Asch has just pointed out that 
we actually don't know how a lot of these things, PCS moves and 
the quality of the housing and things like that, we don't 
actually have good analysis and data to know how they affect 
things like retention.
    And so, I think the answer is no. I don't think we are 
getting it yet, that these things are very important. I mean, 
just take commissaries, for example. How many times do we 
debate the value of commissaries over and over? It is $1.3 
billion, $1.4 billion a year in the budget and we don't know 
how it actually affects service member recruiting and 
retention. I mean, we need to know that.
    Mrs. Davis. Yes.
    Mr. Harrison. These are important questions. So I think we 
still have a long way to go.
    Mrs. Davis. And maybe we just haven't figured out the best 
way to do that. But getting that input from you all is good.
    I wanted to just turn to an area of parental leave because 
I think the parental leave policies make a great difference to 
our service members. We know that certainly from the private 
sector and having an equitable parental leave policy across the 
services has to increase retention, I would think. But, perhaps 
again, that is something that one has to ask.
    And the next question is, and again, it is making that 
connection with people, is what kind of parental leave policy 
is it that people would like to see because we have both 
primary and secondary caregivers. And I know that I have spoken 
to a number of people and we tried introducing this in the past 
that it is best if both parents not necessarily continuously 
but at least over a period of time can be available with a new 
child. And the same goes for an aging parent that needs some 
assistance.
    So what do we know about that and how would we begin to 
really ascertain what that looks like?
    Dr. Asch. So these type--this is a great example, child 
care, all these important benefits, it is not that we don't 
think--people don't think it is important. It is really hard to 
do an evaluation because they are--it is like it is important 
but I don't think about it.
    And so what is needed is a data collection, a controlled 
experiment, but it takes resources and time and it really--it 
is not clear it is something that can be put to the--I mean, 
the services spontaneously will put it together. There needs to 
be resources to do valid testing of these things because it is 
very hard to collect data. Somebody who is very familiar with 
the data that are available on personnel. These data are not 
available in a way that is amenable to analysis. So, we need to 
collect the data and we need to do it within a framework of a 
controlled experiment that will take time and funding. Thank 
you.
    Mr. Levine. So, we did just make the parental leave 
policies more generous a couple of years ago. I don't know and 
maybe Ms. Asch can do it, but I don't know how we separate out 
the impact of that from the impact of a lot of other things 
that have been going on in the military to determine how much 
of an impact that has on recruitment or retention.
    The one thing I would say is I think that there is a piece 
that is a cultural piece, too. One of the things that Congress 
did last year which I think is a good thing is you made the 
Career Intermission Program permanent, which I think gives 
potential flexibility to young parents in a way that a leave 
period of several weeks does not, because if you could take a 
couple of years to be with a young child, that might really 
make a difference. The question is whether it will be 
acceptable within the military system to actually take 
advantage of that opportunity, and we won't know that for a 
while yet whether people will actually be able to do that----
    Mrs. Davis. Can I interrupt you?
    Mr. Levine [continuing]. And then be able to have careers 
afterwards.
    Mrs. Davis. Yes, Mr. Harrison, just quickly, because my 
time is up.
    Mr. Harrison. Sure. I just want to reiterate that as Dr. 
Asch said, that it is a very excellent point that what people 
say in a survey does not always translate in how they act in 
reality. So, that is why I think this has to be a multi-phased 
approach. With any potential changes, you first need to ask 
through surveys, figure out if this looks like it might be a 
potentially good idea.
    Then, you want to run small-scale, randomized, controlled 
trials and actually verify that these results are working in 
practice. It is not always possible to do that for something 
macro like the commissaries. But for things like parental 
leave, you could do trials like this; verify the results happen 
in reality. And then, once you roll it out to the whole force, 
you need to continually measure and reassess and understand do 
we need to change this, do we need to tweak it as time goes by, 
because the preferences of generations are going to change over 
time and the demographics of the service members coming in are 
going to change over time. And so, we have to respond to that.
    Mrs. Davis. Thank you very much. Thank you, Madam Chair.
    Ms. Speier. Thank you.
    A couple of quick questions and then I don't know if we 
want to do another round or not. I believe we now have 12 weeks 
for service members for parental leave. Is that correct?
    Mr. Harrison. That sounds right. Yes.
    Ms. Speier. Which is more than we have for staff of 
Congress, I believe, and certainly for Federal employees. So, 
that is a good positive.
    One thing we haven't talked about is the number of women 
coming into the military and to what extent that should be 
changing the way we look at these policies. So, that is one 
question. Second question is the military of yesterday was made 
up of single people. The military of today is made up of 
couples, and how should that inform our decision making in 
terms of personnel policies? Each of you can just answer those 
two questions quickly.
    Start with you, Mr. Levine.
    Mr. Levine. Well, I think that it has to inform our 
decision making. The fact that we have more women and we are 
reliant on women for critical skills and capabilities that we 
absolutely need is why Secretary Carter wanted to extend the 
family leave policy. It is the basis for that decision. It was 
more self-interested than anything else. We need that in order 
to--his feeling was we need that in order to retain the force 
that we need.
    And we do have a more married force. That's why something 
like career intermission may be a necessary step if we can use 
it effectively to be able to retain people that we haven't been 
able to retain in the past. One of the statistics that always 
interested me about the force is that male officers who are 
married stay longer. Female officers who are married leave 
sooner. And why is that? It is because of gender roles in 
society presumably, but it is a fact that we have to deal with.
    We have to understand that that pattern exists and figure 
out how we deal with that so that we can retain female officers 
without putting them in a position where they feel they could 
never get married because if they do, then they are not going 
to be able to serve.
    Mr. Harrison. I would say to your point, it is not just 
that we have more couples in the military, more married people 
in the military. We are having more and more dual professional 
households, right?
    We want to attract and retain the best and the brightest, 
the hard-charging people. Those people also tend to marry 
people like that themselves. And then we have to look at some 
of the policies of our career system like PCS moves when you 
are forcing families to pick up and move every couple of years. 
If the service member's spouse also has a profession of their 
own, sometimes jobs aren't that portable.
    If you are a young attorney, getting up and moving to 
different States every couple of years, it is going to be very 
disruptive to your career and so I think we have to take that 
into account. And we have to also watch out for a self-
selection system as Mr. Levine was just talking about, that you 
may have the people who choose to stay may be the people who 
this is not a problem for and their family, and the ones who 
are getting out, it might tend to be those who this does create 
a bigger burden for them.
    And so then when you have senior leaders who are making a 
lot of the decisions within the services about how often people 
should move and what their career path should be, they may be a 
subset of the population that does not reflect the overall 
population coming into our military. And so, we have to be 
conscious of that.
    Ms. Speier. Academia does a pretty good job of recruiting a 
particular professor and typically the spouse is also highly 
educated but may not be recruited. But they find a way to help 
them locate a position either at the institution or somewhere. 
Do we do that?
    Mr. Harrison. I mean, I am aware there are many programs to 
help military spouses, but you can only go so far in helping a 
spouse attain appointment in a new location when you are 
forcing them to move so often. I don't think there is hardly 
anything you can do to mitigate that disruption in someone's 
career.
    And you are still setting up a situation where the spouse's 
career, their profession is taking a back seat to the service 
member's. And that is going to cause a lot of stress in a lot 
of families and can lead people to self-select out of service.
    Ms. Speier. Is 2 years something we should look at? Should 
it be 3 or 4?
    Mr. Levine. Absolutely.
    Mr. Harrison. Absolutely.
    Ms. Speier. Why didn't you say that in your comments? Okay. 
Dr. Asch.
    Dr. Asch. So just speaking about women, so focusing on 
recruiting, at least on the enlisted side, it appears that the 
issue, it has to do with women having a lower propensity to 
want to join the military. So the opening up of slots to women 
hasn't necessarily generated an increase in supply of women 
of--the women are half the population. We didn't see this 
massive influx.
    And so, there is an issue of why aren't women joining, why 
do they have a low propensity and so forth on the recruiting 
side. On the retention side especially in the officer, women 
are more likely to leave especially at the key point, I think 
an O-3 point, and I think the career intermission and those 
sorts of programs could be quite helpful in that regard.
    And I just want to make one point about single versus 
couples. I agree with the point of PCS moving and dual income 
but let me just make one point just from the evidence. What the 
evidence shows that military couples, it is not that they are 
more likely--what we see in the data is that military couples 
are more likely to get married sooner than their civilian 
counterparts. So it is really an issue of the timing of 
marriage as opposed to whether they ultimately get married.
    Ms. Speier. Mr. Kelly.
    All right. Well, thank you very much for participating 
today. You were very insightful and we will look forward to 
opportunities when we can pick your brains again.
    This committee stands adjourned.
    [Whereupon, at 4:15 p.m., the subcommittee was adjourned.]

     
=======================================================================

                            A P P E N D I X

                             March 12, 2019
     
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 12, 2019

=======================================================================

      
      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                
                                [all]
</pre></body></html>
